OIG Investigative Reports, Wilkes-Barre, PA. 03/09/2012 - Luzerne County Businessman Charged with Making a Corrupt Payment to Influence Official Action Sentenced
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE District of Pennslyvania
NEWS
Luzerne County Businessman Charged with Making a Corrupt Payment to Influence Official Action Sentenced
FOR IMMEDIATE RELEASE
March 09, 2012
The United States Attorney's Office for the Middle District of Pennsylvania announced today that Michael Pasonick, age 69, of Wilkes-Barre, Pennsylvania, was sentenced today to a 12 month term of imprisonment by United States District Court Judge Richard P. Conaboy. Judge Conaboy also ordered Pasonick to pay a $250,000 fine and serve two years of supervised release.
According to United States Attorney Peter J. Smith, Pasonick was charged with making a corrupt payment to influence official action in May 2011. Pasonick paid at least $1,000 to the member of a school board in Luzerne County to influence to the board member to support Pasonick's efforts to receive business from the school district. He pleaded guilty that same month.
The case was investigated by the Federal Bureau of Investigation, the Internal Revenue Service and the United States Department of Education's Office of Inspector General. Prosecution of the case was handled by Assistant United States Attorney William S. Houser.
****
Top
Printable view
Last Modified: 03/15/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov